Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   ACCESS TO MENTAL HEALTH
   SERVICES AT INDIAN HEALTH
  SERVICE AND TRIBAL FACILITIES




                    Daniel R. Levinson
                     Inspector General

                     September 2011
                     OEI-09-08-00580
   E X E C U T I V E                                S U M M A R Y


                  OBJECTIVE
                  To determine the extent to which American Indians and Alaska Natives
                  (AI/AN) have access to mental health services at Indian Health Service
                  (IHS) and tribal facilities.


                  BACKGROUND
                  A member of Congress expressed concern about AI/ANs’ access to
                  mental health services and requested that the Office of Inspector
                  General conduct this evaluation. According to a Government
                  Accountability Office report, the demand for mental health services
                  outstrips capacity at some IHS and tribal facilities.
                  AI/ANs experience a disproportionately higher rate of mental and
                  behavioral health challenges compared to other populations in the
                  United States. AI/ANs rank first among ethnic groups as likely to
                  suffer mental health disorders such as anxiety and depression that can
                  lead to suicide. They rank second to white non-Hispanics in suicides.
                  The suicide rate among AI/ANs age 13 to 20 is 2.3 times the national
                  average. Additionally, AI/AN communities experience high rates of
                  suicide risk factors, such as low household income and high
                  unemployment.
                  IHS and the tribes provide mental health services, including inpatient
                  and outpatient care and residential substance abuse treatment. Mental
                  health services include, but are not limited to, all psychiatric services,
                  behavioral health services, substance abuse treatment, and traditional
                  healing practices. These services are performed by licensed and
                  unlicensed health care providers and are generally delivered in
                  hospitals, health centers, urban Indian programs, and health stations.
                  Our findings are based primarily on a survey of IHS and tribal facilities
                  that provided health care services from January 2008 to June 2009.
                  The survey response rate was 82 percent (630 of 772 facilities). We also
                  conducted onsite interviews at a sample of 98 facilities and at all IHS
                  Area Offices.




OEI-09-08-00580   ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   I N D I A N H E A LT H S E R V I C E   AND   T R IB A L FA C IL IT IE S   i
E   X   E C     U T   I    V   E            S      U M           M      A        R Y




                          FINDINGS
                          Eighty-two percent of IHS and tribal facilities reported that they
                          provide some type of mental health service; however, the range of
                          available services is limited at some facilities. Of the 630 IHS and
                          tribal facilities that responded to our survey, 514 reported that they
                          provided some level or type of mental health service. The 116 facilities
                          that do not provide mental health services refer clients to other
                          providers either in the non-AI/AN community or on the reservation.
                          Thirty-nine percent of the facilities reported that they provide crisis
                          intervention 24 hours a day.
                          Staffing issues and shortages of highly skilled providers limit
                          AI/ANs’ access to mental health services at IHS and tribal facilities.
                          Although 82 percent of the surveyed facilities reported that they provide
                          mental health services, a variety of staffing issues affect access to
                          services. Facilities that do not provide mental health services reported
                          that staff shortages are part of the reason. Shortages of psychiatrists
                          and other licensed providers at IHS and tribal facilities limit access to
                          mental health services. Some facilities reported that social workers,
                          counselors, and nurses provided pharmacotherapy (medication
                          management) services to meet AI/ANs’ needs. To help address
                          shortages of licensed providers, 17 percent of IHS and tribal facilities
                          (87 of 514) use telemedicine for mental health services.
                          Physical, personal/social, and economic challenges may affect
                          access to mental health services at IHS and tribal facilities.
                          Approximately half of facilities (274 of 514) reported that physical
                          barriers, such as travel conditions, affect clients’ access to services.
                          Approximately one-third of facilities (175 of 514) reported that personal
                          and social barriers, such as the lack of child care, affect clients’ access to
                          services. Nearly one-third of facilities (147 of 514) reported that
                          economic issues, such as difficulty paying copayments, affect access to
                          services.


                          RECOMMENDATIONS
                          The high rates of suicide, substance abuse, depression,
                          unemployment, and poverty in AI/AN communities contribute to the
                          need for access to mental health services. Although 82 percent of IHS
                          and tribal facilities reported that they provide mental health services,
                          access to some services is limited by shortages of highly skilled

    OEI-09-08-00580       ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   I N D I A N H E A LT H S E R V I C E   AND   T R IB A L FA C IL IT IE S   ii
E   X   E C     U T   I    V   E            S      U M           M      A        R Y


                          providers and by other staffing issues. In addition, the majority of
                          AI/ANs attempting to obtain these services live in rural areas and
                          face physical, personal/social, and economic barriers that limit access.
                          When we conducted this study, IHS could not provide a complete and
                          accurate list of all IHS and tribal health care facilities. Therefore, we
                          have no assurance that we have a database that represents all such
                          facilities.
                          To address these issues, we recommend that IHS:
                          Provide guidance and technical assistance to help tribes explore
                          potential partnerships with non-AI/AN providers of community mental and
                          behavioral health services.

                          Continue to expand its telemedicine capabilities and provide guidance
                          and technical assistance to tribal health care providers to expand and
                          implement telemedicine.

                          Develop a plan to create a single database of all IHS and tribal health care
                          facilities.


                          AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                          RESPONSE

                          IHS concurred with all of our recommendations. We did not make
                          any changes in the report based on IHS’s comments. For the full text
                          of those comments, see Appendix G.




    OEI-09-08-00580       ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   I N D I A N H E A LT H S E R V I C E   AND   T R IB A L FA C IL IT IE S   iii
   T A B L E           O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ............................................ 1



         F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
                    Eighty-two percent of IHS and tribal facilities reported that
                    they provide some type of mental health service; however,
                    the range of available services is limited at some facilities . . . . . . 10

                    Staffing issues and shortages of highly skilled providers
                    limit AI/ANs’ access to mental health services at IHS and
                    tribal facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

                    Physical, personal/social, and economic challenges
                    may affect access to mental health services at IHS and
                    tribal facilities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                    Agency Comments and Office of Inspector General Response. . . . 23



         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24
                    A: Health Disparities . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24

                    B: Glossary of Terms . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

                    C: Response Rates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

                    D: Population Served and Screened by Type of Facility . . . . . . . . 30

                    E: Crisis Intervention Services. . . . . . . . . . . . . . . . . . . . . . . . . . . . 31

                    F: Mental Health Care Staff Onsite at Facilities . . . . . . . . . . . . . 32

                    F: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
I   N T   R O D U C T I O N
       I N T R O D U C T I O N


                      OBJECTIVE
                      To determine the extent to which American Indians and Alaska Natives
                      (AI/AN) have access to mental health services at Indian Health Service
                      (IHS) and tribal facilities.


                      BACKGROUND
                      A member of Congress expressed concern about AI/ANs’ access to
                      mental health services and requested that the Office of Inspector
                      General (OIG) conduct this evaluation. According to a Government
                      Accountability Office (GAO) report, the demand for mental health
                      services outstrips capacity at some IHS and tribal facilities. 1
                      AI/ANs experience a disproportionately higher rate of mental and
                      behavioral health challenges compared to other populations in the
                      United States. AI/ANs rank first among ethnic groups as likely to
                      experience mental health disorders such as anxiety and depression
                      that can lead to suicide. 2 They rank second to white non-Hispanics in
                      suicides. See Table A in Appendix A for further information on health
                      disparities.
                      In comparison to other populations, AI/AN youth have more serious
                      problems with mental health disorders related to suicide, such as
                      anxiety, substance abuse, and depression.3 The suicide rate among
                      AI/ANs age 13 to 20 is 2.3 times the national average. Suicide is the
                      second leading cause of death and accounts for 19 percent of all deaths
                      among AI/AN youth.
                      Additionally, AI/AN communities experience high rates of suicide risk
                      factors, such as low household income and high unemployment.4 The


                          1 GAO, Indian Health Service: Health Care Services Are Not Always Available to Native

                        Americans, GAO-05-789, August 2005.
                          2 L.M. Olson and S. Wahab, “American Indians and suicide: A neglected area of

                        research.” Trauma, Violence, and Abuse, 2006, 7(1), 19-33.
                          3 Suicide Prevention Resource Center, Suicide Among American Indians/Alaska Natives,

                        April 5, 2007. Accessed at http://www.sprc.org/library/ai.an.facts.pdf on April 19, 2010.
                          4 Peggy Halpern, Office of the Assistant Secretary for Planning and Evaluation,

                        U.S. Department of Health & Human Services, An American Indian/Alaska Native Suicide
                        Prevention Hotline: Literature and Discussion with Experts, November 2009. Accessed at
                        http://aspe.hhs.gov/hsp/09/AIAN-SuicidePreventionHotline/index.shtml#risk on March 29,
                        2011.



    OEI-09-08-00580   ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   1
I   N T    R O        D   U    C T          I    O      N


                              income of one in every four AI/ANs falls below the Federal poverty level,
                              a rate approximately twice that of the total population. 5 In the first half
                              of 2009, the AI/AN unemployment rate was 13.6 percent.
                              The Federal Government first authorized appropriations for AI/AN
                              health care in 1921 under the Snyder Act, which provided for “relief of
                              distress and conservation of health.” 6 The Indian Health Care
                              Improvement Act (IHCIA) was enacted in 1976 to improve the services
                              and facilities of Federal AI/AN health care programs. 7 The IHCIA
                              expired in 2000, but Congress continued to appropriate funds annually
                              for AI/AN health care. In 2010, the President signed the Patient
                              Protection and Affordable Care Act of 2010 (ACA), 8 which reauthorized
                              appropriations for the IHCIA and stated “that it is the policy of this
                              Nation, in fulfillment of its special trust responsibilities and legal
                              obligations to Indians—to ensure the highest possible health status for
                              Indians and urban Indians and to provide all resources necessary to
                              effect that policy….” 9
                              IHS-Funded Health Services
                              IHS is an agency in the Department of Health and Human Services
                              (HHS) responsible for providing Federal health services to AI/ANs.
                              Headquartered in Rockville, Maryland, IHS operates from 12 Area
                              Offices across the country; these offices oversee the delivery of health
                              services and provide administrative and technical support. IHS’s
                              mission is to raise AI/ANs’ “physical, mental, social, and spiritual health
                              to the highest level.” 10 Members of the 564 federally recognized tribes
                              are eligible for IHS health care. In partnership with the tribes, IHS




                                  5 U.S. Census, Population Profile of the United States: Dynamic Version, Part V:
                                Household Economics, Poverty in 2005. Accessed at
                                http://www.census.gov/population/www/pop-profile/files/dynamic/poverty.pdf on
                                June 23, 2011.
                                  6 Snyder Act, 1921, P.L. 67-85 § 13, 42 Stat. 208, 25 U.S.C. § 13.
                                  7 IHCIA, P.L. 94-437, 25 U.S.C. 1602.
                                  8 ACA, P.L. 111-148.
                                  9 ACA, Title X Part III § 10221, S. 1790 Title I § 103.
                                  10 IHS, Indian Health Service Fact Sheets: Indian Health Service. Accessed at
                                http://www.ihs.gov/PublicInfo/PublicAffairs/Welcome_Info/ThisFacts.asp on
                                February 15, 2009.



    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   2
I   N T    R O        D   U    C T          I    O      N


                              provides services to 1.9 million 11 of the approximately 4.3 million
                              AI/ANs living in the United States.12
                              Indian Self-Determination and Education Assistance Act. In accordance
                              with the Indian Self-Determination and Education Assistance Act
                              (ISDEAA) (1975), as amended, there are three options for IHS-funded
                              health care services. 13
                                  1. Tribes, independently or through tribal organizations or tribal
                                     consortiums, may choose to have IHS continue to provide health
                                     services directly to their members.
                                  2. Through Title I, tribes can receive a share of money that IHS
                                     would have used to administer and operate health services.
                                     Under this option, commonly known as “638 contracting,” tribes
                                     negotiate with IHS for funds to provide health services directly
                                     to their members, and IHS retains a measure of oversight and
                                     supervision.
                                  3. Under Title V, self-governance compacts allow tribes to receive
                                     their share of money from IHS to provide direct health services
                                     and to assume greater control over the administrative functions
                                     that support the delivery of the services and tailor services to
                                     the needs of their communities.14 Self-governance compacts
                                     offer tribes a greater degree of autonomy than does
                                     638 contracting.
                              Direct Care Services. AI/ANs receive direct care services from
                              IHS-operated or tribally operated facilities, generally hospitals, health
                              centers, or health stations that provide direct health care services. In
                              some situations, IHS and tribal programs share a building or hospital in
                              which they operate their respective programs. Tribes, tribal
                              consortiums, and IHS also may enter into cooperative arrangements
                              with independent providers for specific services to be performed at their

                                  11 The remainder of AI/ANs may receive health care through other sources such as
                                employer-provided health benefits, veterans’ health services, or Medicare and Medicaid.
                                  12 U.S. Census Bureau, We the People: American Indian and Alaska Natives in the

                                United States, February 2006. Accessed at
                                http://www.census.gov/population/www/socdemo/race/censr-28.pdf on May 9, 2011.
                                  13 ISDEAA, 1975, P.L. 93-638, as amended.
                                  14 IHS, IHS Fact Sheets: Tribal Self-Governance, January 2009. Accessed at

                                http://info.ihs.gov/TrblSlfDtrm.asp on January 14, 2009.



    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   3
I   N T    R O        D   U    C T          I    O      N


                              facilities. These may include dialysis and dialysis services, mobile
                              diagnostic services, and psychiatric services.
                              IHS and tribal facilities may also bill Medicare and Medicaid for
                              services provided to eligible AI/ANs.15 For AI/AN Medicaid beneficiaries
                              receiving services from IHS or tribal facilities, the Centers for Medicare
                              & Medicaid Services (CMS) reimburses State Medicaid programs at
                              100 percent of the Federal medical assistance percentage. AI/ANs
                              receiving services under Medicare at non-IHS or nontribal facilities are
                              responsible for appropriate copayments and deductibles.
                              Contract Health Services Program. When an IHS or tribal facility cannot
                              provide the required services, IHS and tribes rely on the Contract
                              Health Services (CHS) program, which contracts with private providers
                              such as hospitals and physicians to deliver services. The CHS program
                              is the payer of last resort and often defers or denies lower priority
                              services. 16 According to IHS, the CHS program can typically fund only
                              the highest priority, or Level I, health services. The highest of the four
                              priority levels, Level I services—“Emergent/Acutely Urgent Care
                              Services”—are “necessary to prevent immediate death or serious
                              impairment,” and include emergency psychiatric care. 17 Services to
                              address non-life-threatening mental and behavioral health issues are
                              not considered to be Level I.
                              IHS mental health care programs. IHS and the tribes provide mental
                              health services, including inpatient and outpatient care and
                              residential substance abuse treatment. IHS’s 2010 budget
                              appropriation for mental health and alcohol and substance abuse
                              services was 9 percent of its total clinical services budget
                              ($267 million of $2.95 billion). 18 IHS apportions approximately


                                  15 IHCIA, P.L. 94-437, §§ 401 and 402.
                                  16 42 CFR § 136.61. AI/ANs receiving services through CHS programs or Medicaid may

                                not be charged copayments.
                                  17 IHS,  Contract Health Services, Requirements—Priorities of Care. Accessed at
                                http://www.ihs.gov/NonMedicalPrograms/chs/index.cfm?module=chs_requirements_prioritie
                                s_of_care on April 8, 2010.
                                   18 The fiscal year 2010 appropriation for mental health care ($267 million) is the sum of

                                two line items in the IHS budget for clinical services: mental health ($73 million), and
                                alcohol and substance abuse ($194 million). Accessed at
                                http://www.ihs.gov/NonMedicalPrograms/BudgetFormulation/documents/IHS%20FY%2020
                                11%20Congressional%20Justification.pdf on May 10, 2010.



    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   4
I   N   T   R   O     D   U    C    T       I    O      N


                              50 percent of the $267 million for mental and behavioral health
                              services directly through the tribes, via 638 contracting and
                              self-governance compacts. 19
                              Mental Health Care
                              Mental health services. For the purposes of this report, the term “mental
                              health services” includes, but is not limited to, all psychiatric services,
                              behavioral health services, substance abuse treatment, and traditional
                              healing practices. 20
                              Psychiatric and behavioral health services use a variety of techniques to
                              improve individuals’ functioning. Psychiatric services include, but are
                              not limited to, psychotherapy and pharmacotherapy (i.e., medication
                              management). Behavioral health services and substance abuse
                              treatment include techniques to improve individuals’ physical, mental,
                              social, and spiritual well-being. 21 These services often include
                              health-promotion counseling, 12-step addiction recovery programs,
                              behavioral modification, and therapeutic drug treatment.
                              In addition, IHS and tribes provide traditional healing practices
                              relevant to a community’s unique culture, using a holistic approach to
                              physical, spiritual, and mental health. In the AI/AN community, such
                              treatments can include talking circles and sweat lodges.22
                              Some providers perform mental health services via telemedicine,
                              sometimes called “telepsychiatry.” Telemedicine is the use of medical
                              information exchanged from one site to another via electronic
                              communications, such as video conferencing. See Glossary of Terms in
                              Appendix B for more information.
                              Mental health services providers. A range of providers, with varying
                              scopes of practice, perform mental health services. However, such
                              services are generally performed by licensed health care providers,


                                   19 Bryan Wooden, Deputy Director of IHS’s Division of Behavioral Health. Interviewed
                                on November 19, 2008.
                                   20 For additional definitions of selected terms and concepts in this report, see the

                                Glossary of Terms in Appendix B.
                                   21 IHS,Behavioral Health Home Page. Accessed at
                                http://www.ihs.gov/MedicalPrograms/Behavioral/ on February 15, 2010.
                                   22 A talking circle is a traditional method of conducting a discussion in a respectful,

                                egalitarian manner. A sweat lodge is a structure heated by a central fire or steam from
                                water poured on hot stones and is used for ritual or therapeutic sweating.



    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   5
I   N T   R O   D    U      C T   I    O    N



                                  including psychiatrists, clinical psychologists, clinical social workers,
                                  and marriage and family counselors. Licensure requirements vary by
                                  State. Primary care providers, such as physicians and nurse
                                  practitioners, also perform some mental health services, (e.g.,
                                  pharmacotherapy and emergency care).
                                  Not all States require that other providers—such as aides, addiction
                                  counselors, mental health counselors, and peer counselors—be
                                  licensed. Regulations for counselor certification vary from State to
                                  State, 23 as do the training requirements for aides.
                                  The IHS Community Health Aide Program includes certification
                                  requirements for Behavioral Health Aides (BHA), who provide some
                                  mental health services, such as case management and community
                                  outreach.24 BHAs commonly provide mental health services in
                                  remote areas, such as Alaskan villages. 25
                                  Related Reports
                                  In 2005, GAO visited 13 IHS facilities to determine the extent to
                                  which AI/ANs had access to health care. 26 GAO found that most
                                  facilities offered primary care and dental and vision services, but that
                                  access was not always assured because of waiting times and lack of
                                  transportation. GAO also found that in some cases, gaps in specialty
                                  and behavioral health care resulted in diagnosis or treatment delays
                                  that made patients’ conditions worse and created a need for more
                                  intensive treatment.
                                  In 2009, OIG examined the extent to which IHS and tribes paid for CHS
                                  hospital claims above the required Medicare rate from January to
                                  March 2008. The study found that IHS and tribes paid above the
                                  Medicare rate for 22 percent of hospital claims, resulting in $1 million

                                        23 American Counseling Association, Licensure and Certification. Accessed at
                                      http://www.counseling.org/Counselors/LicensureAndCert.aspx on March 29, 2011.
                                        24 The Community Health Aide Program was established pursuant to IHCIA,
                                      P.L. 94-437, § 119, 25 U.S.C. § 1616l.
                                        25 IHCIA, P.L. 94-437, § 121, 25 U.S.C. § 1616l.
                                        26 GAO, Indian Health Service: Health Care Services                                         Are Not Always Available to
                                      Native Americans, GAO-05-789, August 2005.



          OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                           6
I   N T    R O        D   U    C T          I    O      N


                              in overpayments. If payments for nonhospital claims were capped at
                              the Medicare rate, IHS could have saved as much as $13 million. 27
                              In 2010, Senator Byron Dorgan, Chairman of the Senate Committee on
                              Indian Affairs, released a report citing problems with credentialing and
                              licensing of providers, accountability of controlled substances, and
                              management of CHS program funds, among other issues, in the region
                              covered by the IHS Area Office in Aberdeen, South Dakota.28
                              Companion Report

                              This report is one of two on AI/ANs’ access to health care. The
                              companion report is Access to Kidney Dialysis Services at Indian Health
                              Service and Tribal Facilities (OEI-09-08-00581).


                              METHODOLOGY
                              Scope
                              This evaluation determines the extent to which AI/ANs had access to
                              mental health services at IHS and tribal facilities between
                              January 2008 and November 2009. We conducted this evaluation
                              concurrently with our evaluation of AI/ANs’ access to kidney dialysis
                              services.
                              We did not review the quality and medical necessity of mental health
                              services or review whether IHS paid appropriately for the services in
                              accordance with Federal laws and regulations.




                                  27 OIG, IHS Contract Health Services Program: Overpayments and Potential Savings,

                                OEI-05-08-00410, September 2009.
                                  28 U.S. Senate Committee on Indian Affairs, In Critical Condition: The Urgent Need to

                                Reform the Indian Health Service’s Aberdeen Area, December 28, 2010.



    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   7
I   N T    R O        D   U    C T          I    O      N


                              Survey and Fieldwork
                              Stage 1: Survey of IHS and tribal facilities. To identify all IHS and
                              tribal health facilities, we took the following steps:
                                  •         To create one master list of IHS and tribal facilities, we
                                            combined the multiple lists that IHS provided to us, removing
                                            all duplicates.
                                  •         Because the list was missing information (e.g., names of
                                            current representatives of the facilities), we conducted
                                            research online and used an HHS employee directory to
                                            confirm information about facilities and their representatives.
                                            We also confirmed this information with IHS and tribal staff.
                                  •         We then attempted to contact each facility’s representative to
                                            confirm the name and type of facility and confirm whether it
                                            was IHS operated or tribally operated.
                              We identified 777 IHS and tribal facilities that were providing health
                              care services from June 2009 to November 2009. 29 For the purpose of
                              this report, we excluded five facilities that provided only dialysis
                              services. Therefore, this report is based on 772 IHS and tribal
                              facilities.
                              We sent one survey per facility to the contact person we had
                              identified. Some contacts were responsible for multiple facilities. We
                              asked them to complete one survey for each facility so that we could
                              attribute each response to the appropriate facility. We made a
                              minimum of three attempts by email and/or telephone to ensure that
                              all contact people submitted their surveys. We received completed
                              surveys from 630 of the 772 facilities, for a response rate of
                              82 percent. See Tables C-1 and C-2 in Appendix C for details
                              regarding responses.
                              Stage 2: Fieldwork at 98 IHS and tribal facilities. We visited 98 IHS and
                              tribal facilities in 51 AI/AN communities and reservations. These
                              facilities offered a range of health services, including inpatient and
                              outpatient services and primary and specialty care. We also visited
                              11 of 12 IHS Area Offices in person and interviewed IHS officials at


                                  29 We sent surveys to all IHS and tribal facilities beginning in June 2009 and continued

                                to receive responses for 6 months, until November 2009.



    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   8
I   N T    R O        D   U    C T          I    O      N


                              the remaining Area Office by telephone. We used standardized
                              interview guides and interviewed 436 IHS and tribal administrators,
                              providers, and clients.
                              Analysis
                              We based our findings on the synthesis of survey data, interviews, and
                              observational fieldwork. The data we collected during the onsite work
                              supplemented the survey data. Using SAS software, we analyzed the
                              data collected through our survey and fieldwork.
                              Limitations
                              The findings in this report are not projected to all IHS and tribal
                              facilities but are limited to the 630 survey respondents. We
                              conducted the interviews concurrently with our evaluation of AI/ANs’
                              access to dialysis services. Therefore, not all of the 436 interviews
                              specifically addressed access to mental health services.
                              Standards
                              This study was conducted in accordance with the Quality Standards for
                              Inspection and Evaluation issued by the Council of the Inspectors
                              General on Integrity and Efficiency.




    OEI-09-08-00580           ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   9
         F I N D I N G S

                                                               Of the 630 IHS and tribal facilities that
Eighty-two percent of IHS and tribal facilities
                                                               responded to our survey, 514 reported
      reported that they provide some type of
                                                               that they provide some level or type of
 mental health service; however, the range of                  mental health service. Most of the
available services is limited at some facilities               514 facilities provide psychotherapy and
                                                               various support groups. The most
                              commonly provided services include individual child and adult
                              psychotherapy, family and couples support groups, and addiction
                              treatment and support programs. The type and level of services
                              provided are generally determined by the type of facility and the
                              qualifications of the staff. These facilities reported screening
                              approximately 536,000 clients for mental and/or behavioral health
                              problems during the 18 months beginning January 1, 2008. See Table 1
                              for more information on the types of services and referrals provided by
                              facilities.

                Table 1: Services and Referrals at IHS and Tribal Facilities
                                                                                      Percentage                        Facilities That Do Not Provide
                                                                                      of Facilities                               the Service
                Type of Service                                                      That Provide                                   (n=116)
                                                                                      the Service                  Percentage That        Percentage That Do
                                                                                          (n=514)                 Provide Referrals     Not Provide Referrals
                 Psychotherapy (all)                                                              81%                                  51%              49%
                   Individual – adult                                                             81%                                  44%              56%
                   Individual – child                                                             81%                                  52%              48%
                   Group – adult                                                                  44%                                  28%              72%
                   Group – child                                                                  35%                                  28%              72%
                 Support groups (all)                                                             80%                                  84%              16%
                   Family and couples                                                             71%                                  24%              76%
                   Addiction and 12-step programs                                                 51%                                  36%              64%
                   Family violence                                                                24%                                  8%               92%
                   Victim of childhood sexual abuse                                               20%                                  7%               93%
                   Suicide                                                                        19%                                  10%              90%
                   Child of an alcoholic                                                          18%                                  13%              87%
                   Family and friends of an alcoholic                                             18%                                  9%               91%
                   Parent of an alcoholic                                                         16%                                  8%               92%
                   Parent of chemically dependent child                                           16%                                  11%              89%
                   Child of chemically dependent parent                                           16%                                  8%               92%
                   Chronically mentally ill                                                       15%                                  8%               92%
                 Pharmacotherapy                                                                  46%                                  8%               92%
                 Traditional healing                                                              33%                                  1%               99%
                 Hypnotherapy                                                                         4%                               <1%             >99%
                 Electroconvulsive therapy                                                            1%                               2%               98%
                    Any Service                                                                 100%                                   88%              12%

                Source: OIG analysis of survey data, 2010.




      OEI-09-08-00580         ACCESS    TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                   10
      F    I   N    D I       N G        S


                                       Of the 116 facilities that do not provide mental health services,
                                       88 percent (102 of 116) reported that they refer clients to other
                                       providers. Generally, the facilities that do not provide mental health
                                       services refer clients to local support groups and individual
                                       psychotherapy, depending on the type of services the client may need.
                                       Because these facilities do not provide mental health services, the staff
                                       may have limited knowledge of where to refer clients for certain types
                                       and levels of services.
                                       The range of mental health services varies by the type of facility
                                       Most facilities reported that they provide mental health services, but
                                       the availability of some services is limited at certain types of facilities.
                                       Although all types of facilities reported providing some type of
                                       psychotherapy service or support group, hospitals and health centers
                                       were more likely to provide pharmacotherapy. Less than half of alcohol
                                       and substance abuse treatment and behavioral health facilities and only
                                       22 percent of Alaska village clinics (25 of 112) reported that they
                                       provide pharmacotherapy. Traditional healing is provided most
                                       frequently in urban and school health centers (63 percent). See Table 2
                                       for more information on the range of mental health services at IHS and
                                       tribal facilities. See Appendix D for more information on the
                                       community population served and number of clients screened by these
                                       facilities.

Table 2: Range of Mental Health Services at IHS and Tribal Facilities
                                     Total Facilities                                   Percentage of Facilities That Offer the Service
                                        That Report
                                   Providing Mental                                                                                                                Electro-
                                                                 Psycho-             Support             Pharmaco-                  Traditional         Hypno-
Type of Facility                    Health Services                                                                                                              convulsive
                                                                 therapy*            Groups*               therapy                     Healing         therapy
                                            (n=514)                                                                                                                Therapy
Health center                                         192               93%                   91%                    60%                        25%        5%           1%
Alaska village clinic                                 112               86%                   72%                    22%                        30%        4%           4%
Alcohol and substance
                                                        55              75%                   82%                    36%                        48%        2%              --
abuse treatment center
Hospital                                                35            100%                    91%                    77%                        34%        3%              --
Health station                                          32              81%                   81%                    53%                        16%       19%              --
Behavioral health
                                                        31              87%                   74%                    45%                        32%         --             --
facility
Urban health center                                     28              79%                   82%                    50%                        63%         --             --
School health center                                    20              95%                   70%                       5%                      63%         --             --
Remote health location                                   7              86%                   86%                          --                   50%         --             --
Other residential                                        2              50%                   50%                    50%                          --        --             --
* At least one type of psychotherapy service or support group is offered at the facility.
Source: OIG analysis of survey data, 2010.




          OEI-09-08-00580              ACCESS    TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                         11
F   I   N   D I       N G    S


                            Thirty-nine percent of IHS and tribal facilities that provide mental health
                            services reported that they provide crisis intervention services 24 hours per
                            day, 7 days per week
                            Thirty-nine percent of facilities that provide mental health services
                            (199 of 514) reported that they provide crisis intervention services
                            24 hours a day. Crisis intervention is emergency psychological care
                            provided by trained counselors in a variety of settings that enables an
                            individual to return to normal levels of functioning. Only 26 percent
                            of facilities providing 24-hour crisis intervention services (52 of 199)
                            reported that mental health care staff are onsite the minimum
                            number of hours necessary to provide 24-hour care (i.e., 168 total
                            hours per week). The remaining facilities that provide 24-hour crisis
                            intervention services (147 of 199) use on-call staff to respond to
                            after-hours crises. In general, because of the limited number of
                            mental health staff, most crisis intervention services are provided
                            through primary care and emergency room providers.
                            Fifty-one percent of facilities (262 of 514) reported that they provide
                            crisis intervention services fewer than 24 hours a day. Ten percent of
                            facilities (53 of 514) do not provide any crisis intervention services.
                            See Table 3 for more information on crisis intervention services at
                            IHS and tribal facilities.

                            Table 3: Crisis Intervention Services at IHS and Tribal Facilities

                                                                                                                                    Percentage           Number of
                            Scope of Intervention Services Provided at Facilities
                                                                                                                                    of Facilities         Facilities

                            Provide crisis intervention services 24 hours per day, 7 days per week                                         39%                 199

                             Staff are onsite a minimum 168 hours per week                                                                 10%                   52

                             Staff are onsite fewer than 168 hours per week                                                                29%                 147

                            Provide crisis intervention services fewer than 24 hours per day,
                                                                                                                                           51%                 262
                            7 days per week

                            Provide no crisis intervention services                                                                        10%                   53

                               Total respondent facilities that provide mental health services                                            100%                 514

                        Source: OIG analysis of survey data, 2010.



                            Lack of licensed providers limits referrals to psychiatric facilities
                            In many instances of acute psychiatric crises, clients may have to be
                            treated by health care providers in an acute-care hospital or by licensed
                            providers who can admit the client to an inpatient psychiatric facility.

    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                   12
F   I   N   D I       N G    S


                            The 52 facilities that have mental health care staff onsite to provide
                            24-hour crisis intervention services are likely staffed with social
                            workers and counselors who cannot admit patients to an inpatient
                            psychiatric facility. The lack of staff and clinical training in these
                            facilities limits the mental health services that can be provided during
                            psychiatric emergencies and after-hours crises. See Table E in
                            Appendix E for more information on the staffing levels at IHS and tribal
                            facilities that provide onsite 24-hour crisis intervention services.
                            The director of a youth residential facility that provides onsite 24-hour
                            crisis intervention services reported:
                                     If we had adequate resources we could provide a better
                                     quality of care for mental health and family mental health
                                     needs of our patients. The majority of our patients come
                                     with PTSD [Post-Traumatic Stress Disorder] and chemical
                                     dependencies. Our 24-hour monitoring staff falls far short of
                                     being able to engage therapeutically due to the lack of skills
                                     and training. We can only afford to hire non-skilled
                                     individuals.
                            IHS and tribal facilities provide limited inpatient psychiatric care
                            Approximately 81 percent of facilities that provide mental health
                            services (416 of 514) provide only outpatient mental health services.
                            Approximately 15 percent provide both inpatient and outpatient mental
                            health services, and 4 percent provide only inpatient mental health
                            services. The types of facilities providing inpatient mental health
                            services include, but are not limited to, substance abuse and behavioral
                            health residential treatment facilities.
                            IHS and tribes operate 43 inpatient medical hospitals, 4 of which
                            provide short-term inpatient psychiatric care. The four hospitals that
                            provide such care do so under special circumstances. Two of the four
                            hospitals are in remote areas of Alaska. One has four psychiatric
                            observation beds in a locked ward, supervised by a psychiatric nurse.
                            The other provides inpatient crisis intervention. Both hospitals refer
                            their patients to the State’s only psychiatric hospital, which is in
                            Anchorage and is accessible from their communities only by air.
                            IHS operates one inpatient psychiatric hospital, an adolescent
                            treatment facility that admits patients ages 13 to 17. The hospital has
                            capacity for 20 patients; however, at the time of our visit, it could


    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   13
F   I   N   D I       N G    S


                            accommodate no more than 12 patients because it was not fully
                            staffed.30
                            Most AI/ANs who need inpatient psychiatric care must use non-IHS/
                            nontribal facilities. Almost all IHS operated and tribally operated
                            hospitals (39 of 43) can medically stabilize clients in psychiatric crisis,
                            but most do not admit clients for psychiatric care. Once clients are
                            stabilized, these hospitals will generally refer them to non-IHS/
                            nontribal psychiatric facilities.
                            Although inpatient psychiatric care may be provided at public and
                            private general medical hospitals and public and private psychiatric
                            hospitals, finding available inpatient psychiatric care for clients is
                            challenging. At 29 facilities that we visited, 40 providers (including
                            20 physicians) who are on the front lines of psychiatric emergencies
                            reported that it is often difficult to find inpatient psychiatric care for
                            their clients. Non-IHS/nontribal psychiatric beds are scarce in rural
                            areas. For example, Montana, North Dakota, South Dakota, and
                            Wyoming have a total of only eight psychiatric hospitals. IHS and tribal
                            facilities assist clients in finding inpatient psychiatric care, but provider
                            interviews indicate that their staff cannot meet the demand for care.
                            Frequently, non-IHS/nontribal psychiatric hospitals are full and cannot
                            admit clients in a timely fashion. Furthermore, psychiatric care
                            provided at non-IHS/nontribal facilities may not be culturally sensitive.
                            Additionally, States’ reimbursement policies may affect AI/AN Medicaid
                            beneficiaries’ access to inpatient psychiatric services. During our visits
                            to two AI/AN inpatient youth residential treatment facilities, staff
                            reported that they were unable to bill for out-of-State patients referred
                            to their facilities because the patients’ State of residence did not enroll
                            out-of-State providers. CMS reimburses State Medicaid programs for
                            the full cost of inpatient services provided to Medicaid-eligible AI/ANs
                            at IHS and tribal facilities, regardless of their State of residence or the
                            location of the facility. However, some States do not recognize
                            out-of-State providers and will not pay for out-of-State services except
                            for emergency care.



                                 30 IHCIA, P.L. 94-437, § 708, 25 U.S.C. § 1665g authorizes the Secretary of HHS, acting
                              through IHS, to construct at least one youth regional treatment center for addiction and
                              behavioral health services in each region covered by an IHS Area Office.



    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   14
F   I   N   D I       N G     S



        Staffing issues and shortages of                                                 Although 82 percent of the surveyed
    highly skilled providers limit AI/ANs’                                               facilities reported that they provide
                                                                                         mental health services, the type of care
     access to mental health services at
                                                                                         and services are limited by an inadequate
                   IHS and tribal facilities
                                                                                         number of skilled professional staff.
                            IHS and tribal facilities that provide mental health services reported
                            that a variety of staffing issues affect access to services
                            Forty-seven percent of IHS and tribal facilities that provide mental
                            health services (243 of 514) have licensed medical providers
                            (i.e., physicians, midlevel practitioners, and/or nurses) onsite. These
                            providers render medical assistance and treatment to clients in crisis,
                            including medically stabilizing patients, locating an appropriate
                            psychiatric hospital, and arranging for clients to be admitted and
                            transported to the hospitals.
                            Thirty-nine percent of the facilities (200 of 514) reported that access to
                            services was affected by a variety of staffing issues. During interviews,
                            providers explained that the lack of resources (e.g., financial, staff, and
                            infrastructure) affected their ability to hire contractors, establish
                            outreach programs, and provide adequate staff support. Survey
                            responses indicated that access was limited by the number of
                            appointments they could schedule with available staff and the number
                            of hours the facility could remain open. See Table 4 for barriers related
                            to staffing difficulties that limit AI/ANs’ access to mental health
                            services.

                            Table 4: Barriers That Limit Access to Mental Health
                                     Services at IHS and Tribal Facilities
                                                                                                           Percentage of            Number of
                            Type of Barrier to Care                                                         All Facilities           Facilities
                                                                                                                                      (n=514)

                            Facility’s lack of resources                                                                     37%           192

                            Appointment availability                                                                         34%           173

                            Limited facility hours                                                                           25%           131

                            Source: OIG analysis of survey data, 2010.



                            Staff shortages prevent some IHS and tribal facilities from providing mental
                            health services. Fifty-six of the 116 facilities that provide no mental
                            health services reported that staff shortages and geographical
                            remoteness prevent them from providing the services. These facilities


    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                 15
F   I   N   D I       N G    S


                            reported that they cannot retain and recruit mental health care
                            providers. Half of these facilities (29 of 56) are clinics in Alaska that
                            serve communities of fewer than 500 residents. Typically, facilities that
                            do not provide mental health services (54 of 116) refer clients to
                            facilities that do, including other IHS or tribal facilities and/or private
                            facilities.
                            Shortages of psychiatrists at IHS and tribal facilities limit access to
                            mental health services
                            The shortage of full-time psychiatrists is a problem in most IHS and
                            tribal facilities. Seven percent of IHS and tribal facilities that provide
                            mental health care (36 of 514) employ full-time psychiatrists. Although
                            32 percent of the facilities (162 of 514) reported that they employ
                            psychiatrists, at half of such facilities (87 of 162), psychiatrists work
                            8 or fewer hours per week. In contrast, psychologists, licensed social
                            workers, and counselors are onsite at 437 of the facilities, and their
                            average hours per facility are approximately 4 times those of
                            psychiatrists. See Table F in Appendix F for information on the median
                            hours per week for mental health care staff by provider type.
                            Thirty-one percent of IHS and tribal facilities that do not employ
                            full-time psychiatrists (146 of 478) are in designated health professional
                            shortage areas (HPSA). HPSAs are designated by the Health Resources
                            and Services Administration (HRSA) as having shortages of health
                            providers in primary care, dental health, and mental health. HRSA has
                            designated 208 AI/AN communities as having the highest possible
                            degree of shortages of mental heath care providers. 31
                            Unlicensed providers provide pharmacotherapy to meet access needs
                            Facilities often do not have appropriately licensed staff available to
                            provide pharmacotherapy. Pharmacotherapy is the treatment of
                            disease, especially mental disorders, with drugs. 32 Treatment can
                            include dispensing drugs and monitoring clients; however, only licensed
                            providers can prescribe the drugs used in pharmacotherapy. Forty-six


                                 31 The Public Health Service Act § 332 (amended by P.L. 101-597) requires HRSA to

                              designate HPSAs. The aforementioned 208 AI/AN communities have unusually high needs
                              for mental health services. HRSA, Shortage Designation: HPSAs, MUAs [medically
                              underserved areas] & MUPs [medically underserved populations]. Accessed at
                              http://bhpr.hrsa.gov/shortage/index.htm on January 29, 2010.
                                32 MedlinePlus, “Pharmacotherapy,” Medical Dictionary. Accessed at

                              http://www.merriam-webster.com/medlineplus/pharmacotherapy on February 14, 2010.



    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   16
F   I   N   D I       N G    S


                            percent of facilities that provide mental health care (236 of 514) provide
                            this treatment. Of the facilities that provide pharmacotherapy, 38 of
                            236 reported that social workers, counselors, and nurses provided some
                            type of pharmacotherapy service, which may have included drug-related
                            treatment other than prescribing medication. In addition, in
                            8 States that do not license psychologists to prescribe medicine,
                            13 facilities reported that psychologists perform pharmacotherapy. 33
                            During our visits to five facilities in remote areas, respondents reported
                            that they employ no providers who are licensed to prescribe medication
                            that may be an essential part of crisis intervention treatment. The
                            facilities reported that licensed providers who are not onsite write the
                            initial prescriptions for clients. Unlicensed providers who are onsite
                            then dispense the medication and monitor the clients. Providers
                            reported that there are no alternatives in the community for clients who
                            require medication. One hospital reported that clients wait 7 weeks to
                            get an appointment with a psychiatrist for a prescription and treatment.
                            To help address shortages of licensed providers, 17 percent of IHS and
                            tribal facilities use telemedicine for mental health treatment
                            Given staff shortages, telemedicine can be a practical and
                            cost-effective way to expand health services to offsite locations. The
                            IHCIA authorizes the Secretary of HHS to expend funds for the
                            development and expansion of telehealth and telemedicine programs,
                            where appropriate. In addition, Medicare 34 and some Medicaid State
                            programs and third-party payers pay for certain telemedicine
                            services.
                            Although telemedicine is being used in IHS and tribal facilities in fields
                            such as cardiology, nutrition counseling, and eye care, only 17 percent of
                            facilities (87 of 514) reported that they use it for mental health services.
                            More than half of the facilities that provide telemedicine (52 of 87) are
                            in remote areas of Alaska. Seventy-five percent of these facilities (65 of
                            the 87) provide pharmacotherapy via telemedicine.
                            Providers reported that pharmacotherapy is one of the services most in
                            demand for telemedicine and one of the services best suited for it. We


                                33 This figure does not include Louisiana or New Mexico. At the time of this evaluation,

                              Louisiana and New Mexico were the only States that licensed clinical psychologists to
                              prescribe medication.
                                 34 42 CFR § 410.78.




    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   17
F   I   N   D I       N G    S


                            visited 11 facilities that currently use telemedicine. Providers at these
                            facilities said they hoped to expand their existing telemedicine services,
                            and providers at other facilities expressed interest in using telemedicine
                            in the future. However, some facilities may encounter challenges with
                            telemedicine. At one facility, providers reported that older clients are
                            uncomfortable with telemedicine, especially for mental health services.
                            Therefore, the facility does not provide psychiatric consultations or
                            pharmacotherapy via telemedicine.


                                                             Approximately 69 percent of the
             Physical, personal/social, and                  facilities that provide mental health
           economic challenges may affect                    services (353 of 514) reported that
        access to mental health services at                  AI/ANs face physical, personal/social,
                    IHS and tribal facilities                or economic barriers in obtaining
                                                             mental health services at IHS and
                            tribal facilities. See Table 5 for the individual barriers related to
                            access to mental health services.

                              Table 5: IHS and Tribal Facilities That Reported That
                                       Their Clients Experience Barriers to Mental
                                       Health Services
                                                                                                                                    Number of
                                                                                                   Percentage of
                              Type of Barrier to Care                                                                                Facilities
                                                                                                    All Facilities
                                                                                                                                      (n=514)
                              Physical barriers
                                 Transportation                                                                     53%                    274
                                 Weather                                                                            37%                    191
                                 Distance                                                                           36%                    187
                                 Poor roads                                                                         19%                     98
                              Personal and social barriers
                                 Lack of child care                                                                 34%                    175
                                 Work schedule                                                                      31%                    159
                                 Personal schedule                                                                  30%                    154
                              Economic barriers
                                 Financial                                                                          28%                    147
                                 Copayments                                                                         11%                     61

                            Source: OIG analysis of survey data, 2010.




    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                 18
F   I   N   D I       N G    S



                            Approximately half of facilities reported that physical barriers affect
                            clients’ access to services
                            Approximately 53 percent (274 of 514) of facilities reported that
                            transportation was a barrier to accessing services. More than
                            one-third of the facilities reported that physical barriers, such as poor
                            roads, distance, or weather, prevented clients living on rural
                            reservations from obtaining mental health services. During
                            interviews, providers and clients related concerns about dangerous
                            travel through remote areas to access facilities. Twenty facilities
                            reported that their clients may use alternative means of
                            transportation—including snowmobile, dogsled, tractor, horse, or
                            boat—to get to facilities.
                            Approximately one-third of facilities reported that personal and social
                            issues affect clients’ access to services
                            Approximately 30 percent of facilities reported that work and personal
                            schedules affected clients’ access to mental health services. Survey
                            responses from 34 percent of the facilities that provide mental health
                            services indicate that their clients have limited access to these services
                            because of lack of child care.
                            During onsite visits, providers and clients in 24 communities related
                            other personal and social barriers that affect access. According to
                            respondents, domestic violence and sexual abuse, addiction to drugs
                            and alcohol, and the personal stigma associated with seeking help for
                            mental illness limited clients’ ability and willingness to obtain mental
                            health services. Clients in small communities were particularly
                            concerned about confidentiality, fearing that their mental health
                            treatment would become common knowledge.
                            Nearly one-third of facilities reported that economic issues affect
                            clients’ access to services
                            Twenty-eight percent of IHS and tribal facilities reported that their
                            clients’ financial situations may limit their access to mental health
                            services. For example, 11 percent of the facilities reported that
                            copayments may present a barrier to care when the AI/AN clients are
                            referred to non-IHS/nontribal facilities.35 The financial condition of
                            clients also was mentioned in interviews with clients and staff. In


                                 35 SSA § 1916(j). AI/ANs referred to facilities under CHS are not charged copayments.




    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   19
F   I   N   D I       N G    S


                            many instances, economic issues combine with personal and social
                            factors to affect access to services. In rural areas, clients may not
                            have enough money for transportation or other personal costs
                            associated with trying to obtain services. For example, in several of
                            our interviews, clients and providers cited clients’ inability to pay for
                            child care and the cost associated with clients’ taking leave from their
                            jobs as socioeconomic problems that serve as barriers to services.




    OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   20
   R E C O M M E N D A T I O N S



                  The high rates of suicide, substance abuse, depression, unemployment,
                  and poverty in AI/AN communities contribute to the need for access to
                  mental health services. Although 82 percent of IHS and tribal facilities
                  reported that they provide mental health treatment, access to some
                  services is limited by staffing issues and shortages of highly skilled
                  providers. In addition, the majority of AI/ANs attempting to obtain
                  these services live in rural areas and face physical, personal/social, and
                  economic barriers that limit access to services.
                  When we conducted this study, IHS could not provide a complete and
                  accurate list of all IHS and tribal health care facilities. Although IHS
                  attempts to collect information annually about IHS-funded health
                  services, tribal facilities funded under Title I and Title V of the ISDEAA
                  are not required to report specific information about their facilities.
                  Therefore, IHS was unable to provide a complete, accurate list of all IHS
                  and tribal health care facilities and contact individuals for them.
                  To address these issues, we recommend that IHS:
                  Provide guidance and technical assistance to help tribes explore
                  potential partnerships with non-AI/AN providers of community mental and
                  behavioral health services
                  To improve access to and coordination of community mental health
                  services for AI/ANs, IHS should develop written guidance that
                  addresses service gaps and lack of coordination among States, IHS and
                  tribal facilities, and non-AI/AN providers. The written guidance should
                  include a strategy to improve relationships with non-AI/AN community
                  providers and access for and treatment of AI/ANs in underserved tribal
                  communities. This may enable IHS and tribal providers to expand
                  coverage for critical mental health services.
                  IHS should provide technical assistance to tribes and non-AI/AN
                  providers serving AI/ANs regarding the Federal reimbursement policy
                  for eligible AI/ANs under the IHCIA. Lastly, given that the needs of
                  AI/ANs vary significantly among tribes and locations, IHS should assist
                  tribes in collaborating with States and non-AI/AN providers to address
                  the challenges of obtaining culturally sensitive services.




OEI-09-08-00580   ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   21
R   E C     O    M    M   E   N D          A T          I    O      N      S


                          Continue to expand its telemedicine capabilities and provide guidance
                          and technical assistance to tribal health care providers to expand and
                          implement telemedicine
                          Seventeen percent of IHS and tribal facilities use telemedicine to help
                          address staff shortages and expand access to professional health
                          services. IHS should continue to address technical barriers to support
                          and encourage use of telemedicine at IHS and tribal facilities. In
                          addition, IHS should develop written guidance to work with and educate
                          IHS and tribal providers, States, and non-AI/AN providers regarding
                          telemedicine services. IHS should continue to provide technical
                          assistance, if needed, to tribes that use telemedicine to ensure that they
                          have the capability to bill Medicare, Medicaid, and third-party payers
                          for appropriate telemedicine services. By being able to charge third-
                          party payers, the facilities can increase their revenue to support facility-
                          specific telemedicine services.
                          Develop a plan to create a single database of all IHS and tribal health care
                          facilities
                          Our attempts to compile a comprehensive list of all IHS and tribal
                          health care facilities were limited because there is no single database—
                          either in IHS or among tribes and tribal organizations—of all IHS and
                          tribal health care facilities, with the facilities’ addresses and the names
                          of contact people. Although tribes are not required under
                          638 contracting or self-governance compacting to report information
                          about their facilities to IHS, a single database that identified all health
                          care facilities and the services they offer would help the tribes and IHS
                          to expand services under the reauthorized IHCIA. IHS should develop a
                          plan to work with tribes, States, and Federal agencies to create a
                          national database of AI/AN health care facilities, and it should include
                          all such facilities, regardless of funding sources. Such a database would
                          assist the Secretary in meeting the Administration’s mandate to
                          “formulate a comprehensive approach to Indian health care reform” and
                          provide planning information relative to the distribution of health
                          services for AI/ANs throughout the country.




    OEI-09-08-00580       ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   22
R   E C   O   M   M     E   N D      A T          I    O      N      S




                            AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                            RESPONSE
                            IHS concurred with all three of our recommendations. In response to
                            our first recommendation—that IHS provide guidance and technical
                            assistance to help tribes explore potential partnerships with non-AI/AN
                            providers of community mental and behavioral health services—IHS
                            stated that it will collaborate with the Substance Abuse and Mental
                            Health Services Administration (SAMHSA) to develop written guidance
                            that addresses service gaps and lack of coordination among States, IHS,
                            tribal facilities, and non-AI/AN providers. IHS also stated that it will
                            provide technical assistance to tribes regarding Federal reimbursement
                            policies for eligible AI/ANs and that it will assist tribes in collaborating
                            with SAMHSA, States, and non-AI/AN providers to address the
                            challenges of obtaining culturally sensitive services for AI/AN patients.
                            In response to our second recommendation—that IHS continue to
                            expand its telemedicine capabilities and provide guidance and technical
                            assistance to tribal health care providers to expand and implement
                            telemedicine—IHS stated that it will continue to expand
                            implementation of telemedicine for behavioral health services, educate
                            IHS and tribal providers regarding the use and effectiveness of
                            telemedicine for behavioral health services, and address potential
                            technical barriers to the use of telemedicine for behavioral health
                            services at IHS and tribal facilities. IHS stated that it will also provide
                            technical assistance to tribes that use telemedicine for behavioral health
                            services to increase their ability to bill third-party payers for those
                            services.
                            In response to our third recommendation—that IHS develop a plan to
                            create a single database of all IHS and tribal health care facilities—IHS
                            stated that it will work with tribes, States, and Federal agencies to
                            create a database of AI/AN health care facilities to include physical
                            locations, contact information, and available services.
                            We did not make any changes in the report based on IHS’s comments.
                            For the full text of IHS’s comments, see Appendix G.

      OEI-09-08-00580       ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   23
    A P P E N D I X ~ A


          Health Disparities
            Table A: Prevalence of Health Conditions and Mortality Rates by Race and Ethnicity
                                                                                                                                                                                  Asian
                                                                     American Indian/                            White,                                         Black,                              Two
                                                                                                                                            Hispanic                         and Pacific
                                                                       Alaska Native                       Non-Hispanic                                   Non-Hispanic                     or More Races
                                                                                                                                                                               Islander
            Health Condition *                                                                                                         Prevalence of Health Condition

              Two or more chronic conditions                                              18%                                   10%              6%                   11%           5%              9%

              Diabetes                                                                    12%                                    5%              6%                    8%           5%              3%

              Frequently anxious or depressed                                             23%                                   16%             13%                   14%           8%             21%

              Obesity                                                                     39%                                   28%             31%                   38%          12%             20%

            Cause of Death **                                                                                                            Mortality Rate Per 100,000

              Heart disease                                                              141.8                             210.7               157.3              271.3           113.3              ---

              Cancer                                                                     123.2                             187.0               122.8              222.7           110.5              ---

              Diabetes                                                                    41.5                                  21.5            33.6                  46.9         16.6              ---

              Chronic liver disease                                                       22.6                                   8.7            13.9                   7.7           3.6             ---

              Unintentional injuries                                                      54.7                                  41.0            31.3                  38.7         17.9              ---

              Motor vehicle accidents                                                     24.8                                  15.5            14.7                  14.5           7.6             ---

              Suicide                                                                     11.7                                  12.9             5.6                   5.2           5.2             ---
            *Source: A Profile of American Indians and Alaska Natives and Their Health Coverage, September 2009, Figure 4: Prevalence of Health Conditions by Race/Ethnicity,
            2004-2007. 36 Based on a percentage of the defined population.
            **Source: A Profile of American Indians and Alaska Natives and Their Health Coverage, September 2009, Figure 6: Mortality Rate by Race/Ethnicity, 2005. 37 Based on
            age-adjusted death rates per 100,000 population.




                            36 Cara James, Karyn Schwartz, and Julia Berndt, Race, Ethnicity & Health Care Issue Brief: A Profile of American Indians and Alaska
                          Natives and Their Health Coverage, September 2009. Accessed at http://www.kff.org/minorityhealth/upload/7977.pdf on February 12, 2010.
                             37 Ibid.




OEI-09-08-00580         ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                                                                         24
A   P P
     A EP NP DE I N X D ~ I B X ~ B

                  Glossary of Terms


                  Clinic. A facility, physically separated from a hospital or health center,
                  in which primary care physician services are available on a regularly
                  scheduled basis but for less than 40 hours a week for outpatient care.
                  Clinics are similar to health stations. 38
                  Clinical Social Worker. A health professional trained in client-centered
                  advocacy who assists clients with information, referral, and direct help in
                  dealing with local, State, or Federal government agencies.39
                  Crisis Intervention. A brief therapeutic approach that is ameliorative
                  rather than curative of acute psychiatric emergencies.40
                  Electroconvulsive Therapy. A procedure in which electric currents are
                  passed through the brain, deliberately triggering a brief seizure.
                  Electroconvulsive therapy seems to cause changes in brain chemistry that
                  can immediately reverse symptoms of certain mental illnesses.41
                  Health Center. A facility, physically separated from a hospital, with a full
                  range of ambulatory services, including physician, nursing, pharmacy,
                  laboratory, and x-ray services. Services are available at least 40 hours
                  per week for ambulatory care. 42
                  Health Station. See “Clinic,” above.

                  Hypnotherapy. The use of exercises that bring about deep relaxation and
                  an altered state of consciousness. Persons in a deeply focused state can
                  affect their own psychological responses. 43
                  Marriage and Family Therapist. A person who evaluates and helps resolve
                  problems in the context of a marriage or family. Such a therapist
                  typically has a master’s or doctoral degree. 44


                      38 Definition accessed at http://www.anthc.org/ref/hs/codebook/asufac.cfm on
                    March 30, 2011.
                      39 Definition accessed at http://www.mentalhealthchannel.net/csw.shtml on June 13, 2010.
                      40 Definition accessed at http://psycnet.apa.org on February 14, 2010.
                      41 Definition accessed at http://www.mayoclinic.com/health/electroconvulsive-

                    therapy/MY00129 on January 4, 2010.
                     42 Definition accessed at http://www.anthc.org/ref/hs/codebook/asufac.cfm on

                    March 30, 2011.
                      43 Definition accessed at http://www.umm.edu/altmed/articles/hypnotherapy-000353.htm on

                    January 4, 2010.



OEI-09-08-00580   ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   25
A   P P    E      N   D I    X    ~      B


                       Mental Health Counselor. A broad term for a person who provides
                       counseling. Most such individuals have at least a master’s degree in
                       social work or a related field, have several years of supervised work
                       experience, and are licensed or certified. A mental health counselor may
                       also be called a licensed professional counselor, licensed mental health
                       counselor, or professional counselor.45
                       Midlevel Practitioner. A nurse midwife, nurse practitioner, or physician
                       assistant, licensed by the State in which the individual practices. 46
                       Pharmacotherapy. The treatment of disease, and especially mental
                       disorder, with drugs.47
                       Post-Traumatic Stress Disorder (PTSD). A disorder in which a person
                       “experienced, witnessed, or was confronted with an event or events that
                       involved actual or threatened death or serious injury, or a threat to the
                       physical integrity of self or others” and in which a person’s response
                       involved intense fear, helplessness, or horror.”48
                       Psychiatric Crisis. A psychological or social condition characterized by
                       unusual instability caused by excessive stress and either endangering or
                       felt to endanger the continuity of an individual or group. 49
                       Psychiatric Hospital. An institution that: 50

                       •      is engaged primarily in providing, by or under the supervision of a
                              Doctor of Medicine or Osteopathy, psychiatric services for the
                              diagnosis and treatment of mentally ill persons;



                              44 Definition accessed at
                            http://therapists.psychologytoday.com/rms/content/therapy_professionals.html
                            on March 30, 2011.
                              45 Ibid.
                              46 Centers for Medicare & Medicaid Services (CMS),  Medicare State Operations Manual
                            Provider Certification. Accessed at http://www.cms.gov/transmittals/Downloads/R32SOM.pdf
                            on April 8, 2010.
                              47 Definition accessed at http://www.merriam-ebster.com/medlineplus/pharmacotherapy

                            on March 29, 2011.
                              48 American Psychiatric Association,                        Diagnostic and Statistical Manual of Mental Disorders
                            DSM-IV-TR, 2000.
                              49 Definition accessed at http://www.merriam-webster.com/medlineplus/crisis

                            on March 29, 2011.
                              50 CMS, Psychiatric Hospitals. Definition accessed at
                            http://www.cms.hhs.gov/CertificationandComplianc/14_PsychHospitals.asp on
                            February 14, 2010.



OEI-09-08-00580        ACCESS    TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S          26
A   P P    E      N   D I    X    ~      B


                       •      satisfies the requirements of sections 1861(e)(3) through (e)(9) of the
                              Social Security Act (general hospital requirements);
                       •      maintains clinical and other records on all patients as the Secretary
                              finds necessary to determine the degree and intensity of the
                              treatment provided to individuals entitled to hospital insurance
                              benefits under Part A; and
                       •      meets such staffing requirements as the Secretary finds necessary
                              for the institution to carry out an active program of treatment for
                              individuals receiving services in the institution.
                       Psychologist (Clinical Psychologist). A specialist in one or more branches
                       of psychology, especially a practitioner of clinical psychology, counseling,
                       or guidance. Psychology is a doctoral-level profession.51
                       School Health Center. A health center that is based at a school site and
                       serves primarily students.
                       Telemedicine. The use of medical information that is exchanged from one
                       site to another via electronic communications to improve clients’ health.
                       Closely associated with telemedicine is the term “telehealth,” which often
                       encompasses a broader definition of remote health care that does not
                       always involve clinical services. Videoconferencing; transmission of still
                       images; e-health, including patient portals; remote monitoring of vital
                       signs; continuing medical education; and nursing call centers are all
                       considered part of telemedicine and telehealth. Telemedicine is not a
                       separate medical specialty. 52




                              51 Definition accessed at http://www.merriam-webster.com/medlineplus/psychologist

                            on March 29, 2011.
                              52 Definition accessed at http://www.americantelemed.org/i4a/pages/index.cfm?pageid=3333

                            on February 4, 2010.



OEI-09-08-00580        ACCESS    TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   27
           A P P E N D I X ~ C
                  Response Rates

                  Table C-1: Fieldwork and Survey Response Rate by IHS and Tribal Facility Type

                                                                                                                                                                    SURVEYS
                                                                                              Total
                                                                                          Facilities
                                                                                                             Response                   Total in Population            Nonrespondents                 Respondents
                  Type of Facility                                                          Visited
                                                                                                                 Rate
                                                                                                                                      Total    Tribal         IHS   Total     Tribal    IHS   Total      Tribal     IHS

                  Alaska village clinic                                                              3                 94%             160       160           0      10         10      0     150         150       0

                  Alcohol and substance abuse treatment
                                                                                                 18                    66%              99        93           6      34         34      0      65          59       6
                  center

                    Residential                                                                  13                    78%              50        44           6      11         11      0      39          33       6

                    Nonresidential                                                                   5                 53%              49        49           0      23         23      0      26          26       0

                  Behavioral health facility                                                     10                    79%              42        41           1       9          9      0      33          32       1

                    Residential                                                                      1               100%                7         7           0       0          0      0       7           7       0

                    Nonresidential                                                                   9                 71%              35        34           1      10          9      1      25          25       0

                  Health center                                                                  36                    84%             274       220          54      44         40      4     230         180      50

                  Health station                                                                     2                 65%              68        56          12      24         24      0      44          32      12

                  Hospital                                                                       23                    93%              44        14          30       3          2      1      41          12      29

                    Medical                                                                      22                    88%              43        14          29       5          4      1      38          10      28

                    Psychiatric                                                                      1               100%                1         0           1       0          0      0       1           0       1

                  Other residential                                                                  0               100%                5         5           0       0          0      0       5           5       0

                  Remote health locations                                                            0                 85%              13        13           0       2          2      0      11          11       0

                  School health center                                                               0                 79%              28         5          23       6          3      3      22           2      20

                  Urban health center                                                                0                 82%              34        34           0       6          6      0      28          28       0

                  Wellness/fitness center                                                            0                 20%               5         5           0       4          4      0       1           1       0

                     Total                                                                       98                    82%             772       646          126    142       134       8     630         512      118
                  Source: Office of Inspector General (OIG) analysis of survey data, 2010.



OEI-09-08-00580               ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                                                                         28
     A   P P      E   N   D I     X      ~    C




                            Table C-2: Fieldwork and Survey Response Rate by IHS Service Area

                                                                     VISITS                                                                             SURVEYS

                                                                                                                            Total in Population            Nonrespondents                Respondents
                                                                                             Response
                            IHS Service Area                   Total Facilities
                                                                                                 Rate
                                                                                                                        Total           Tribal    IHS   Total   Tribal      IHS   Total     Tribal     IHS

                            Aberdeen, SD                                         13                    51%                   45            28     17      21       20        1      24          8      16

                            Alaska                                               19                    92%                252            252       0      19       19        0     233        233       0

                            Albuquerque, NM                                           6                83%                   24            10     14       4        3        1      20          7      13

                            Bemidji, MN                                          12                    67%                   86            81      5      27       27        0      59         54       5

                            Billings, MT                                              7                95%                   22            11     11       1        0        1      21         11      10

                            California                                           10                    93%                   71            71      0       4        4        0      67         67       0

                            Nashville, TN*                                            4                67%                   35            33      2      11       11        0      24         22       2

                            Navajo                                                    3                83%                   42             4     38       6        2        4      36          2      34

                            Oklahoma                                                  8                78%                   63            51     12      14       14        0      49         37      12

                            Phoenix, AZ                                          13                    71%                   68            51     17      20       19        1      48         32      16

                            Portland, OR                                              7                76%                   55            49      6      13       13        0      42         36       6

                            Tucson, AZ                                                8                73%                     9            5      4       2        2        0       7          3       4

                                  Total                                        110                     82%                772            646      126    142      134        8     630        512      118
                            Source: OIG analysis of survey data, 2010.
                            *Interviewed Area Office by phone.




OEI-09-08-00580                 ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                                                                    29
             A P P E N D I X ~ D

    Population Served and Screened by Type of Facility

                  Table D: Community Population Served and Number of Clients
                           Screened for Mental Health Services by Type of Facility
                                                              Total Facilities That                                                          Approximate Number
                                                                                                          Mean Community
                                                                Report Providing                                                            of Clients Screened for
                  Type of Facility                                                                       Population Served
                                                                    Mental Health                                                                     Mental Health
                                                                                                            by the Facility*
                                                                          Services                                                                        Services*

                  Health center                                                              192                                27,000                     238,000
                  Alaska village clinic                                                      112                                      300                    6,000
                  Alcohol and substance
                                                                                             55                                 60,000                      37,000
                  abuse treatment center
                    Residential                                                              36                                 87,000                       7,000
                    Nonresidential                                                           19                                 54,000                      30,000
                  Hospital                                                                   35                                 32,000                     183,000
                  Health station                                                             32                                   5,000                     10,000
                  Behavioral health facility                                                 31                                 38,000                      28,000
                    Residential                                                               7                                 44,000                       2,000
                    Nonresidential                                                           24                                 36,000                      26,000
                  Urban health center                                                        28                                 51,000                      34,000
                  School health center                                                       20                                       600                    1,000
                  Remote health location                                                      7                                   3,000                     <1,000
                  Other residential                                                           2                                   6,000                     <1,000
                     Total                                                                   514                                22,000                     536,000
                  *Based on facility-reported information on the population of the community served by the facility. Number of clients
                  screened is from approximately January 2008 to November 2009.
                  Source: Office of Inspector General analysis of survey data, 2010.




OEI-09-08-00580                   ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                      30
                         A P P E N D I X ~ E


                Crisis Intervention Services


Table E: Staffing Levels at IHS and Tribal Facilities That Provide 24-hour Crisis Intervention Services With Onsite Mental Health
         Care Staff

                                                                                                                                                                 By Provider Type and Total Median Hours

                                                                                                                                                                                                         Social Worker,
                                                                                                                                                           Any Medical                                  Counselor, Aide,        Any Mental Health
                                                                                                                   Psychiatrist                                                    Psychologist
                                                                                                                                                            Provider                                          and/or               Care Staff
                                                                                                                                                                                                        Traditional Healer
                                                                      Total Facilities That
                                                                         Provide 24-Hour
                                                                             Onsite Crisis                                         Median                             Median                  Median                  Median                  Median
                                                                                                                                                        Facilities*             Facilities*             Facilities*             Facilities*
Type of Facility                                                    Intervention Services                    Facilities*           Hours**                            Hours**                 Hours**                 Hours**                 Hours**


Alcohol and substance abuse treatment center                                                          12                   6                 16                  9        76             6        40            12       200            12       235

Behavioral health facility                                                                             8                   7                 39                  8        78             3        20             7       248             8       321

Health center                                                                                         16                 13                    8                16       204             9        16            16       120            16       341

Hospital                                                                                              14                 13                  40                 13       114            12        40            14       165            14       305

Urban health center                                                                                    2                   1                 32                  2        84             1        32             2       291             2       387

  Total                                                                                               52                 40                  32                 48        84            31        32            51       200            52       321

   Percentage of All Facilities That Reported
                                                                                                10%                     8%                   ---               9%         ---          6%         ---        10%          ---        10%          ---
   Providing Mental Health Services (n=514)
*Facilities are counted once if they have at least one or more of each provider type.
**Median hours include all hours for each provider type per facility type. Facilities may employ more than one of each provider type.
Source: Office of Inspector General analysis of survey data, 2010.




          OEI-09-08-00580                       ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S                                                                                 31
                  A P P E N D I X ~ F


  Mental Health Care Staff Onsite at Facilities

  Table F: Median Hours Per Week for Mental Health Care Staff
           by Provider Type
                                                             Percentage of
  Type of Provider                                               Facilities*                       Median Hours Per Week**
                                                                   (n=514)
  Mental health care providers                                               85%                                                                40
    Psychologist                                                             29%                                                                34
    Social worker                                                            35%                                                                40
    Counselor/therapist                                                      69%                                                                40
    Mental health care aide                                                  13%                                                                22
    Peer counselor                                                             7%                                                               38
  Physician                                                                  41%                                                                25
    Psychiatrist                                                             32%                                                                 8
    All other physicians                                                     20%                                                                40
  Midlevel practitioners                                                     21%                                                                40
    Physician assistant                                                        9%                                                               32
    Psychiatric nurse practitioner                                             4%                                                               40
    Nurse practitioner                                                       15%                                                                40
  Traditional providers                                                      12%                                                                16
    Medicine man/woman                                                         2%                                                                4
    Spiritual advisor                                                          5%                                                               25
    Traditional healer                                                       10%                                                                 8
  Registered nurse                                                           10%                                                                40
  Other                                                                        4%                                                               39
     Any level provider                                                    100%                                                                 66
*Facilities are counted once if they have at least one or more of each provider type.
**Median hours include all hours for each provider type per facility type. Facilities may employ more than one of each
provider type.
Source: Office of Inspector General analysis of survey data, 2010.




  OEI-09-08-00580                       ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S        32
                 A P P E N D I X ~ G
     Agency Comments




OEI-09-08-00580          ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   33
             A    P P   E   N   D I         X     ~      G




OEI-09-08-00580             ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   34
          A P PEN             D       x         G




                  Page 3 - Inspector General


                  The IHS will continue to expand implementation of tele-behavioral health services, educate IRS
                  and Tribal providers regarding the use and effectiveness oftele-behavioral health services, and
                  address potential technical barriers to such utilization at IRS and Tribal facilities. The IHS will
                  also provide technical assistancet6 Tribes that use tele-behavioral health services to increase
                  their ability to bill third party payers for those services.

                  3. Develop a plan to create a single database of aU ms and Tribal health care facilities.

                  The IRS concurs with this recommendation. The Agency will develop a plan to create a single
                  database that identifies all IRS and Tribal health care facilities to better assist Tribes and IRS in
                  identifying and expanding services. The illS will work with Tribes, States, and Federal agencies
                  to create the single database of AIlAN health care facilities to include physical locations, contact
                  information, and available services.

                  Thank you for providing illS the opportunity to comment on the orG's draft report. The illS is
                  committed to improving our health delivery system and increasing access to those requiring our
                  services. We will continue to work in partnership with our Tribal health system to assist them in
                  their ongoing efforts.
                                                                           /S/
                                                                Yvette Roubideaux, M.D., M.P.H.




OEI·09·08·00580              ACCESS TO MENTAL HEALTH SERVICES AT IHS AND TRIBAL FACILITIES                                35
           A C K N O W L E D G M E N T S

                    This report was prepared under the direction of Timothy S. Brady,
                    Regional Inspector General for Evaluation and Inspections in the
                    San Francisco regional office, and Michael Henry, Deputy Regional
                    Inspector General.
                    Steven Zerebecki served as the team leader for this study. Other
                    principal Office of Evaluation and Inspections staff from the
                    San Francisco regional office who contributed to the report include:
                    Loul Alvarez, Veronica Gonzalez, Camille Harper, Cynthia Lemesh,
                    Christina Lester, Linda Min, China Tantameng, and Marcia Wong.
                    Central office staff who contributed include Ruth Davis, Melinda Golub,
                    Amitava “Jay” Mazumdar, and Talisha Searcy.




OEI-09-08-00580     ACCESS   TO   M E N TA L H E A LT H S E R V I C E S   AT   IHS   AND   T R I B A L FA C I L I T I E S   36
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
